                        OFFICE OF INSPECTOR GENERAL
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                                Interim Audit of Costs Claimed by
                        Parents As Teachers National Center, Incorporated
                           Under Grant Agreement No. 01SPHM0004



                                       Audit Report No. 03-13
                                         November 6,2002



                                        Financial Schedule and
                                     Independent Auditors' Report
                                              For the Period
                                     April 1. 2001 to June 30,2002



                                             Prepared by:


                                    COTTON & COMPANY LLP
                                  333 North Fairfax Street, Suite 401
                                     Alexandria, Virginia 223 14




This report was issued to Corporation management on February 1 1 , 2003. Under the laws and
regulations governing audit follow-up, the Corporation must make final management decisions on the
report's findings and recommendations no later than August 1 1, 2003, and complete its corrective actions
by February 11, 2004. Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                                                                     CORPORATION

                               Office of Inspector General                           FOR NATIONAL
                     Corporation for National and Community Service
                               Audit Report Number 03- 13


          Audit of Corporation for National Service Grant Number 01 SPHM0004
                  with Parents as Teachers National Center, Incorporated


The Office of Inspector General engaged Cotton and Company, LLP to audit costs claimed
by the Parents as Teachers National Center, Incorporated (PATNC) under Grant Number
01SPHM0004. The audit covered the grant period April 1,2001 through June 30,2002 and
included procedures to determine if costs claimed in financial reports prepared by PATNC
were allowable, internal controls were adequate to safeguard Federal funds, and whether
PATNC had policies and procedures to ensure compliance with Federal laws, applicable
regulations and award conditions.

As a result of the work performed, the auditors are questioning $91,760 and set forth as
unresolved $75,929 of the $926,976 costs claimed. Of the questioned costs, $47,539 results
from costs incurred prior to the grant period that are allowable only with written approval of
the Corporation. The unresolved indirect costs results from lack of a negotiated indirect cost
rate agreement.

The Office of Inspector General reviewed the report and the work papers supporting its
conclusions. We agree with the findings and recommendations presented. The Corporation
and Parents as Teachers National Center, Incorporated's responses to this report are included
as Appendices A and B, respectively.




                                                                                 Inspector General
                                                                                 1201 New York Avenue, NW
                                                                                 Washington, DC 20525
                      OFFICE OF INSPECTOR GENERAL
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
 INTERIM AUDIT OF COSTS CLIAMED UNDER GRANT NO. 01SPHM0004 AWARDED TO
          PARENTS AS TEACHERS NATIONAL CENTER, INCORPORATED
               FOR THE PERIOD OF APRIL 1,2001 TO JUNE 30,2002


                                            CONTENTS

Section                                                          Page

Background                                                         1

Purpose, Scope, and Methodology                                    1

Results in Brief                                                   2

Independent Auditors' Report                                       4

Schedule of Claimed, Unresolved, and Questioned Costs              6

Report on Compliance and on Internal Control                       9

Appendices
 Auditee's Response to Draft Audit Report                      Appendix A

 Corporation's Response to Draft Audit Report                  Appendix B
                                        auditors * advisors



                                           November 6,2002

Corporation for National and Community Service
Office of Inspector General
1201 New York Avenue, NW
Washington, DC 20525

Subject:        Interim Audit of Costs Claimed by the Parents As Teachers National Center,
                Incorporated


         At the request of the Office of Inspector General (OIG), Cotton & Company LLP performed an
audit of costs claimed by Parents As Teachers National Center, Incorporated. under Grant No.
0 1SPHM0004.

BACKGKOUND

         Parents as Teachers National Center, Incorporated (PATNC) is a nonprofit organization
committed to ensuring that all children--prenatal to kindergarten entry--are cared for, nurtured, and
prepared for school success and that they have every opportunity to realize their full potential. The
Parents as Teachers (PAT) program began in 1981 in Missouri as a pilot project for first-time parents of
newborns, with funding from the Missouri Department of Elementary and Secondary Education and the
Danforth Foundation. State funding was provided in 1985 to implement the PAT program in all Missouri
school districts. PAT expanded beyond Missouri in 1986 with program implementation in three other
states. In 1987, PATNC was incorporated as a not-for-profit organization governed by a national board
of leaders from education, health, government, and the private sector. Today, more than 2,600 PAT
programs are in place in 49 states; Washington, DC; 5 U.S. territories; and 6 other countries.

        In April 2001, the Corporation for National and Community Service (the Corporation) awarded a
2-year $2,496,000 grant to PATNC to expand services and provide support to its stakeholders--families,
parent educators, program administrators, community partners, state agencies, and the research
community. This grant was the first federal grant awarded to PATNC.

PURPOSE, SCOPE, AND METHODOLOGY

        We performed an audit of the following:


                Grant No.                   Grant Period                   Audit Period
             0 1SPHM0004                  04/1/01 to 0313 1/03          041110 1 to 6130102
        The objectives of our audit were to determine if:
                Costs charged by PATNC to the grant were allowable, allocable, and reasonable in
                accordance with applicable Federal cost principles and grant terms and conditions.

                PATNC's systems of internal control were adequate to properly administer, account for,
                and monitor the grant in compliance with Corporation and Federal requirements.

                PATNC had adequate procedures and controls to ensure compliance with Federal laws,
                Corporation regulations, and grant terms and conditions.

        We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and Goverrment Auditing Standards, as revised, issued by the Comptroller General of
the United States. These standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial schedule is free of material misstatement. An audit includes
examining, on a test basis, evidence supporting amounts and disclosures in the financial schedule. It also
includes assessing the accounting principles used and significant estimates made by management, as well
as evaluating overall financial schedule presentation. We believe that our audit provides a reasonable
basis for our opinion on claimed amounts.

RESULTS IN BRIEF

        Audit results are detailed in Schedule A and related notes and are summarized below:

Cost Findings

                                 Grant                Claimed           Unresolved          Questioned
   Grant Number                  Budget                 Costs             Costs               Costs
    0 1SPHM0004                $2,494,000            $926,976            $75,929              $9 1,760



Compliance and Internal Control Issues

                PATNC had not prepared or submitted indirect cost rate proposals to the Corporation.
                The failure to establish final indirect cost rates for FYs 2001 and 2002 resulted in our
                decision to classify $75,929 of indirect costs as unresolved pending a decision by the
                Corporation or cognizant Federal agency.

                PATNC claimed costs that were unallowable and unallocable in accordance with Office
                of Management and Budget (OMB) Circular A-122 and grant agreement terms and
                conditions.

                Expenditures reported for the grant in the Schedule of Federal Awards in PATNC's
                OMB Circular A-133 audit report for the fiscal year ended June 30,2002 were incorrect.
         We held an exit conference on November 6,2002. In addition, we provided a draft copy of this
report to PATNC and the Corporation for comment. Their responses are included as Appendixes A and
B to this report.

        This report is intended solely for the information and use of the Office of the Inspector General,
Corporation management, PATNC, and the U.S. Congress and is not intended to be and should not be
used for anyone other than these specified parties.

                                                 COTTON & COMPANY LLP
                                          auditors e advisors




                                             November 6,2002


Inspector General
Corporation for National and Community Service


                                INDEPENDENT AUDITORS' REPORT

        We audited amounts claimed by the Parents As Teachers National Center, Incorporated
(PATNC) under Corporation for National and Community Service Grant No. 0 1SPHM0004 for the
period April 1,2001 to June 30,2002. Amounts claimed are summarized in Schedule A. These claimed
amounts are the responsibility of PATNC management. Our responsibility is to express an opinion on
amounts shown in the schedule based on our audit.

        We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and standards applicable to financial-related audits contained in the Government
Auditing Standards, as amended, issued by the Comptroller General of the United States. These
standards require that we plan and perform the audit to obtain reasonable assurance about whether the
financial schedule is free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial schedule. It also includes assessing
accounting principles used and significant estimates made by management, as well as evaluating overall
financial schedule presentation. We believe that our audit provides a reasonable basis for our opinion on
claimed amounts.

       Schedule A is intended to present allowable amounts incurred under grant terms and conditions.
Therefore, it is not intended to be a complete presentation of PATNC's revenues and expenses.

       Questioned expenditures of $91,760 and unresolved costs of $75,929 are shown in Schedule A.
The Corporation will make the final determinations regarding the allowability of these amounts.

         In our opinion, except for questioned and unresolved costs, the financial schedule referred to
above presents fairly, in all material respects, amounts claimed by PATNC for Grant No. 01 SPHM0004
for the period April 1,2001 through June 30, 2002, in accordance with applicable grant terms and
conditions.

        In accordance with Government Auditing Stundards, we have also issued our report dated
November 6,2002, on our tests of PATNC's compliance with certain provisions of laws, regulations, and
grants and our consideration of its internal control over financial reporting. That report is an integral part
of an audit performed in accordance with Government Auditing Standards and should be read in
conjunction with this report in considering audit results.
        This report is intended solely for the information and use of the Office of the Inspector General,
Corporation management, PATNC, and the U.S. Congress and is not intended to be and should not be
used by anyone other than these specified parties.

                                                 COTTON & COMPANY LLP
FINANCIAL SCHEDULE
                                                                                     SCHEDULE A
                                                                                        Page 1 of 3


      SCHEDULE OF CLAIMED, UNRESOLVED, AND QUESTIONED COSTS UNDER
                   CORPORATION GRANT NO. OlSPHM0004
                       APRIL 1,2001 TO JUNE 30,2002


                          Approved          Claimed        Unresolved      Questioned
Cost Category              Budget            Costs           Costs           Costs         Notes
 Salaries and Wages      $ 792,119         $ 199,211                        $ 4,002          1
 Fringe Benefits            189,42 1          25,684                             305         1
 Contracted Services        566,396          370,487                         6 1,854        2
 Travel                     330,509           68,909                             636         1
 Equipment                   74,258           29,187
 Supplies                    98,400           14,272                              14          1
 Other                      216,170          134,955                          16,607          3
Total Direct Costs       $2,267,273        $ 842,705                         $83,418
 Indirect Costs             226,727           84,27 1        $75,929           8,342          4
Total Costs              $2.494.000        $ 926.976(a)      $ 75!929        $91.760



       a.     Cumulative expenditures reported on the June 30,2002, Federal Cash Transaction
              Report (FCTR) were $840,235. Omitted from reported expenditures were $47,539 of
              preaward costs and $39,202 of indirect costs, which were subsequently reported in the
              September 30,2002, FCTR. Because these costs were incurred during our audit period,
              we have inchded them in claimed costs.
                                                                                       SCHEDULE A
                                                                                          Page 2 of 3


                         NOTES TO THE SCHEDULE OF
             CLAIMED, UNRESOLVED, AND QUESTIONED COSTS UNDER
                    CORPORATION GRANT NO. 01 SPHM0004
                         APRIL 1,2001 TO JUNE 30,2002


1.   Preaward Costs. Claimed costs included $47,539 of costs incurred in March 2001. The grant
     period began on April 1,2001. PATNC representatives stated that the proposed start date for the
     grant was March 1,2001, and they began work on the project on that date. The stated grant
     period in the award document was apparently overlooked.

     OMB Circular A-122, Attachment B, Paragraph 34, states:

             Pre-award costs are those incurred prior to the effective date of the award
             directly pursuant to the negotiation and in anticipation of the award where such
             costs are necessary to comply with the proposed delivery schedule or period of
             performance. Such costs are allowable only to the extent that they would have
             been allowable if incurred after the date of the award and only with the written
             approval of the awarding agency.

     We noted that costs incurred in March 200 1 were related to the project and in accordance with
     the proposed budget. PATNC did not, however, obtain written approval from the Corporation to
     claim the costs. Accordingly, we questioned these costs, as follows:

                           Cateeorv                        Amount
                  Salaries and Wages
                  Fringe Benefits
                  Contracted Services
                  Travel
                  Supplies
                  Other
                  Total



2.   Contracted Services. We questioned $61,854, as follows:

     a.      Claimed costs included $19,379 of payments to three consultants and five speakers that
             exceeded the maximum Corporation-allowed compensation rate. Section B.5.e of the
             Grant Provisions limits payments to individuals for consultant services to $443 per day
             ($55.38 per hour). PATNC representatives stated that they misunderstood the grant
             provision.

     b.      For the reasons stated in Note I , we questioned $42,475 of preaward costs.
                                                                                          SCHEDULE A
                                                                                             Page 3 of 3


3.   Other Costs. We questioned $16,607 of other costs as follows:

     b.      Claimed costs included a $1 5,000 accrual for video production costs booked at the end of
             Fiscal Year (FY) 2001. PATNC paid the invoice and charged this amount to the grant in
             FY 2002; it did not, however, reverse the FY 200 1 accrual. Accordingly, claimed costs
             were overstated by $15,000. PATNC representatives stated accruals have to be manually
             reversed and this one was apparently missed. Section B.5.a of the Grant Provisions
             states that costs must be shown in the books or records and supported by source
             documentation.

     c.      Claimed costs included a $1,500 donation to a charitable organization. PATNC made
             the donation in lieu of compensation for a celebrity spokesperson who worked on a
             public service announcement. The donation was made at the request of the
             spokesperson. OMB Circular A-122, Attachment B, Paragraph 8, states that
             contributions and donations by the organization are unallowable. PATNC
             representatives consider the costs allowable, because it would have paid and claimed this
             amount as a consulting fee if a donation had not been made.


     d.      For the reasons stated in Note 1, we questioned $107 of preaward costs.


4.   Indirect Costs. Claimed indirect costs were based on the 10-percent provisional indirect cost
     rate specified in the grant agreement applied to total direct costs. Accordingly, we questioned
     $8,342 ($83,418 x 10%) of indirect costs associated with questioned base costs discussed in
     Notes 1 through 3 above. Section B.7 of the Grant Provisions states that the provisional rate is a
     maximum rate subject to downward adjustment only. The cognizant Federal agency or the
     Corporation is responsible for establishing final indirect cost rates. Final indirect cost rates have
     not been established for FYs 2001 and 2002; accordingly, we classified as unresolved the
     $75,929 of indirect costs not questioned.
                                        auditors e advisors



                                            November 6,2002


Inspector General
Corporation for National and Community Service


          REPORT ON COMPLIANCE AND ON INTERNAL CONTROL OVER
  COSTS CLAIMED BY PARENTS AS TEACHERS NATIONAL CENTER, INCORPORATED
                          UNDER CORPORATION
                         GRANT NO. 01SPHM0004


        We audited costs claimed by Parents As Teachers National Center (PATNC) under Corporation
Grant No. 01SPHM0004, for the period April 1,200 1 to June 30,2002 and have issued our report dated
November 6,2002, which report was qualified for the matters discussed therein. We conducted our audit
in accordance with auditing standards generally accepted in the 1Jnited States of America and standards
applicable to financial-related audits contained in the Government Auditing Standards, as amended,
issued by the Comptroller General of the United States.

COMPLIANCE

        As part of obtaining reasonable assurance about whether the financial schedule is free of material
misstatements, we performed tests of compliance with certain provisions of laws, regulations, and the
grant, noncompliance with which could have a direct and material effect on determination of financial
schedule amounts. Providing an overall opinion on compliance with these provisions was not an
objective of our audit and, accordingly, we do not express such an opinion. Results of our tests disclosed
instances of noncompliance that are required to be reported under Government Auditing Standards; see
Findings 1, 2, and 3 below.

INTERNAL CONTROL OVER FINANCIAL REPORTING

         In planning and performing our audit, we obtained an understanding of PATNC's internal control
over financial reporting to determine audit procedures for the purpose of expressing our opinion on the
financial schedule and not to provide assurance on internal control over financial reporting. We noted,
however, certain matters involving internal control over financial reporting and its operation that we
consider to be reportable conditions. Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of internal control over financial reporting
that, in our judgment, could adversely affect PATNC's ability to record, process, summarize, and report
financial data consistent with assertions of management in the financial schedules; see Findings 1 and 2,
below.
         A material weakness is a condition in which the design or operation of one or more of the
internal control elements does not reduce to a relatively low level the risk that misstatements in amounts
that would be material in relation to the financial schedules being audited may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions. Our
consideration of the internal control structure would not necessarily disclose all matters in the internal
control structure that might be reportable conditions and, accordingly, would not necessarily disclose all
reportable conditions that are also considered to be material weaknesses. We consider the reportable
conditions described in findings 1 and 2 to be material weaknesses.

FINDINGS

1.      PATNC had not prepared or submitted indirect cost rate proposals to the Corporation. Claimed
        indirect costs were based on the 10-percent provisional indirect cost rate specified in the grant
        agreement. Section B.7 of the Grant Provisions states that the provisional rate is a maximum rate
        subject to downward adjustment only, and that the Corporation is responsible for establishing
        final indirect cost rates.

        OMB Circular A-122, Attachment A, Paragraph E.2, states that:
                b. A non-profit organization which has not previously established an indirect cost rate
                with a Federal agency shall submit its initial indirect cost proposal immediately after the
                organization is advised that an award will be made and, in no event, later than three
                months after the effective date of the award.
        e.      Organizations that have previously established indirect cost rates must submit a new
                indirect cost proposal to the cognizant agency within six months after the close of each
                fiscal year.

        PATNC representatives stated that they are in the process of preparing indirect cost rate
        proposals, but that they think actual indirect cost rates exceed the 10-percent provisional rate.

        Recommendation: We recommend that PATNC prepare and submit indirect cost rate proposals
        as required by OMB Circular A- 122.

2.      As detailed in Schedule A, PATNC claimed costs that were unallowable and unallocable in
        accordance with OMB Circular A-122 and grant agreement terms and conditions.

        Recommendation: We recommend that PATNC revise its policies and procedures to ensure that
        it claims only allowable and allocable costs under Corporation grants.

3.      Expenditures reported for the grant in the Schedule of Federal Awards in PATNC's OMB
        Circular A-133 audit report for the fiscal year ended June 30,2002 were incorrect. The $738,734
        reported included $47,539 of preaward costs. Preaward costs were incurred in March 2001 and
        previously reported in PATNC's FY 2001 audit report. PATNC representatives stated that they
        thought that these costs had not been previously reported.

        Recommendation: We recommend that PATNC correct its OMB Circular A-133 audit report
        and to submit corrected information to the Federal audit clearinghouse.
        This report is intended solely fix the information and use of the Office of the Inspector General,
Corporation management, PATNC, and the U.S. Congress and is not intended to be and should not be
used by anyone other than these specified parties.

                                                 COTTON & COMPANY LLP
                                           APPENDIX A




AUDITEE'S RESPONSE TO DRAFT AUDIT REPORT
January 13,2003                                                                                       2228   Ball Drive
                                                                                                St Louis, M a 63146
                                                                                                  p  314 432.4330
J. Russell George                                                                                  f 3 1 4 432 8963

Inspector General
Office of the Inspector General
1201 New York Avenue, NW
Washington, DC 20525
                                                                                                                 OFFICERS
                                                                                         Carolyn W       Losos, Choir
                                                                                         SuEllen Fr~ed,Vice Chorr
Dear Mr. George,                                                                  W ~ l i ~ aMehoioh,
                                                                                             m        Jr, Vice Cholr
                                                                                          Jone Nelson, Vice Cho~r
                                                                                      Mory Rose Moin, Secretory
Please find our response to the draft report on the audit results for our grant        Arthur   L Mullory, Treasurer
number 01 SPHM0004.
                                                                                                       PRESIDENT/CEO
                                                                                                 Susan S Stepleton
We respectfully request that you consider our comments while reviewing
the findings. If you have any questions or wish to discuss the response,                                         MEMBERS
please contact our CFO, Carolyn Bier at (314) 432-4330 extension 293.                                  MoryLee Allen
                                                                                                      Roseann Bentley
                                                                                                  Cynthia G       Brown
                                                                                                   Morm D Chavez
                                                                                                      Barbara Clmton
                                                                                           F i e r s ~ o r rCole Ill, M D
                                                                                            Horvey     R Colten. M D
                                                                                                         Gad Dan&
                                                                                                Corol Brunson Day
                                                                                        Pep ri~chordA Gephordt
                                                                                                      Jo Ann Harmon
                                                                                                   Dorothy V Horns
                                                                                            Governor Bob Holden
                                                                                                       D~onneJuhnke
                                                                                                             Kent King
Cc: Dana Ro~el-s,Maria Ackel-                                                                    Thereso     E   Loveless
                                                                                                       Morylen Monn
                                                                                                      D a v ~ dL Morley
                                                                                            Ann Pleshette Murphy
                                                                                                  Joan M Newman
                                                                                                            As Rlc
                                                                                                      Dot~~lo
                                                                                                        Elame Shwer
                                                                                                   Donald M Suggs
                                                                                             W k m M Van Cleve
                                                                                            Barbara Hanna Was~k
                                                                                                  Jeannette Watson


                                                                                                         LIFE MEMBERS
                                                                                         Sen Christopher S. Bond
                                                                                          T Berry Brozelton, M D.
                                                                                                        Jane     K.   Pahe
                                                                                                   Edward F Zigler
1. Preaward Costs of $47,539. The original budget proposed to the Corporation for
National Service was to start March 1,2001. During the month of March, we incurred
$47,539 in expenses. Of these expenses, $42,475 was paid to an Information Technology
Company, $4,307 was spent on in-house staffs time and benefits and $12 1 was spent on
miscellaneous supplies, all of which relate to the planning phase of our IT project. This
work was approved by the Corporation for National Service as a part of Goal #3 of our
final budget. We spent $636 to purchase an advance airline ticket for our Controller to
attend a course on Cost Principles, OMB Circular A-122. Our Grants Officer, Jim Phipps
recommended this course and this expense was approved as part of Goal #7 of our final
budget. Though we neglected to receive written approval, we request that these costs be
allowed as they were related to the project, received verbal approval and were in
accordance with the approved budget.


2. Contracted Services. a.) We hired an in-house technology consultant at a $90 per
hour rate to oversee the outside IT consultants who were developing our technology plan
until we hired a full-time IT Manager. We then hired an Operations Director to spend
25% of her time overseeing the project. After eight months, this employee resigned. W e
called on the in-house IT consultant to oversee the technology project until we could fill
the vacancy. Given that we were so far along in the project and the in-house consultant
had been involved in the process, this was the logical decision. We supplemented the
difference in the hourly fee with the remaining salary of the Operations Director. This
position was approved as a part of the salary budget under Goal 3 in the amount of
$25,000 for each year of the grant. We ask that you allow the $15,919.43 in lieu of salary
for the Operations Director position.

We paid five speakers $1,500 each to participate in our Literacy Panel discussion. This
discussion lasted two days therefore the auditors allowed $886 each as allowable
payment. The auditors did not take the speakers preparation and travel time into
consideration. The $1,500 paid to each speaker included all preparation and travel time as
well as time spent on-site. We consider $1,500 to be payment for 3.50 days, 1 %
preparation and follow-up day, one travel day and one on-site day. We ask that you
allow the questioned cost of $3,070.

We paid a consultant $80 per hour for four hours of work, totaling $320. The auditors
questioned $92.48 of this amount as i -.uceeds the maximum rate of $55.38 per hour.
We agree with the auditor's finding and intend to repay the $98.48.

We paid a consultant S 120.00 per hour for 4.5 hours of work, totaling $540. The auditors
questioned $290.79 of this amount as it exceeds the maximum rate of $55.38 per hour.
We agree with the auditor's finding and intend to repay the $290.79.

 b). See Preaward Costs.
3. Other Costs. a,) The $15,000 for video production costs was recorded as an accrual
for FY 2001 and as an actual expense in FY 2002. The accrnal entry was not reversed.
This was an error on our part and we intend on repaying the questioned cost.


b.) We intended to pay Bob Costas $1,500 for his work as the spokesperson for our
public service announcement. The development of the PSA was approved as part of our
budget in Goal # 6. When payment was due to Mr. Costas, he instructed us to issue the
check to the Bob Costas Cancer Center at Cardinal Glennon Children's Hospital. We
complied with his request and made the donation in lieu of payment to Mr. Costas. We
ask that you allow this cost as the donation was in lieu of contracted service fees.

c.) See Preaward Costs.


4. Indirect Costs. We intend to repay the 10% indirect costs attributed to the $15,000
error as described in note 3 part a.) and $389.27 as described in note 2 part a.). This
amounts to $1,538.93.

Our budget approved by the Corporation for National Service includes an indirect cost
rate of 10%. Our grant award letter did not require us to take action on this rate. Our
actual indirect cost rate for FY 2000 was 15.2%, 15.6% in FY 2001 and 11.5% for FY
2002. We feel that the 10% rate applied to our budget is a conservative and fair estimate
and ask that this rate be accepted.



In summary:
Audit Findings;
Unresolved Costs
Questioned Costs


PATNC Reply:
Asking to allow
Mend to repay




Completed by:
Carolyn Bier
                                               APPENDIX B




CORPORATION'S RESPONSE TO DRAFT AUDIT REPORT
                                                                                       CORPORATION

                                                                                       FOK N A T I O N A L
                                                                                       ------ A   \l D   ---
                                                                                       COMMUNITY




                                                                                                                1    ,
                                                                                                                         ".        /
  To:                     Russell George, Inspector General
                                                                                                                    '2 . :'
                          Michelle Guillermin, Chief Financial Of c&rk' I
  Through:
                                                                                                           J                  ,!


  From:                                                                                        nts Managemen             /
                                C/
  Date:                   January 24,2003

  Subject:                Response to OIG Draft Audit Report 03-13: Interim Audit of Costs Claimed by
                          Parents as Teachers National Center, Incorporated Under Grant No.
                          0 1SPHM0004


  We have reviewed the draft audit report of the Parents as Teachers National Center grant number
  01SPHM0004. Due to the limited timeframe for response, we have not yet conducted a
  comprehensive review, analyzed documentation from the grantee supporting the questioned
  costs, or reviewed the work papers. We will respond to all findings and recommendations when
  the audit is issued and we have reviewed the findings in detail.

  However, we do want to note that Parents as Teachers National Center is a first-time federal
  grantee with a limited basis on which to develop a cost allocation plan for indirect expenses.
  Therefore, the Corporation allowed Parents as Teachers National Center to claim up to a
  provisional rate of 10% for indirect costs for the first year of the grant. Further, the Corporation
  indicated that staff would work with them at the end of the first year of the grant to negotiate an
  indirect cost rate. The Corporation sent the required paperwork to Parents as Teachers National
  Center to begin the process of establishing a cost allocation plan in December 2002. Therefore,
  we will allow the indirect costs that were questioned in the audit up to the 10% of total allowable
  direct costs.

  The audit also indicated that Parents as Teachers National Center incurred $47,539 in costs
  before the stated grant project period began, not realizing it began later than anticipated. The
  costs incurred during the pre-award period were related to the project and in accordance with the
  proposed budget. If the grantee had requested approval to incur costs prior to award, the request
  would have been granted. OGM will allow the related questioned costs identified in the audit
  and advise the grantee during the audit resolution phase that pre-award costs for future grants
  should be requested in advance.




                                                                                                          1201 New York Avenue, N.W. Washington, DC 20525
NATIONAL SERVICE: GETTING THINGS DONE
!\~nt>r~C-o.rp\
             LMI.!I   (III~
                          YCW   I ; W I I,   (,   , v , I I ~ , ! ~ ~ S~VII,W
                                                                      G/            c ,lrlls
                                                                                hm,.,,         Q          telephone: (302) 606-5000 website: w~vw.nationalservice.~rg
